          Pension Benefit Guaranty Corporation
                 Office of Inspector General
                     Final Evaluation Report




 Security Evaluation of the Pension Benefit Guaranty
 Corporation Information Technology Environment



              RESTRICTED DISCLOSURE

This document contains privileged and confidential information, and was
produced at the direction of the Pension Benefit Guaranty Corporation, Office of
Inspector General. It may not be disclosed, reproduced, or disseminated without
                the express permission of the Inspector General.




                           September 16, 2014
                                                     EVAL-2014-12/IT-14-104
If you want to report or discuss confidentially any instance of misconduct,
   fraud, waste, abuse, or mismanagement, please contact the Office of
                             Inspector General.



                              Telephone:
                   The Inspector General’s HOTLINE
                           1-800-303-9737

          The deaf or hard of hearing, dial FRS (800) 877-8339
           and give the Hotline number to the relay operator.



                                   Web:
               http://oig.pbgc.gov/investigation/details.html



                                Or Write:
                 Pension Benefit Guaranty Corporation
                      Office of Inspector General
                            PO Box 34177
                    Washington, DC 20043-4177
